                U.S. Department of the Interior
                    Office of Inspector General
                                   Report No. C-IN-MOA-0006-2005




Modified Water Deliveries to Everglades National Park

                AUDIT REPORT
                      March 2006
                         EXECUTIVE SUMMARY
                               WHAT WE FOUND
                               The Department of the Interior (Department) has not
                               effectively participated in the Modified Water Deliveries to
                               Everglades National Park Project (Project). The Department’s
WHY WE DID THIS                participation has been ineffective because it has not developed
AUDIT                          and communicated a comprehensive and unified restoration
                               strategy and clearly defined its consultation role for the
We audited the                 Project. This has contributed to Project delays and cost
Department’s participation     increases. Additionally, we found that the Department has
in the Project because of      taken little action to monitor or obtain Project status
its importance to the          information from the agency charged with designing and
overall restoration of         constructing the Project, the U.S. Army Corps of Engineers
natural hydrologic             (Corps).
conditions in the
Everglades. As of fiscal       Authorized in 1989, the Project was originally intended to
year 2005, about $192          improve water flows into Everglades National Park (Park).
million had been               The Congress directed the Corps to plan and implement the
appropriated for the           Project in consultation with the Department. Although the
Project. This is the first     Corps has overall responsibility for the Project, appropriations
review of this Project by      for the Project pass through the Department’s National Park
the Office of Inspector        Service.
General. Government
Accountability Office          Since its inception, the Project has been subject to significant
audits of overall              delays and escalating costs. Public controversies and conflict
Everglades restoration         have resulted in litigation and further contributed to Project
efforts have identified        re-designs. The Project is currently eight years behind
weaknesses including           schedule and the projected price tag is approaching $400
strategic planning and         million, nearly five times its original estimate.
coordination. Our
objective was to determine     There are many factors that have resulted in these Project
whether the Department         delays and cost increases that are outside the Department’s
has effectively participated   direct responsibility and control. Some of these delays and
in the Project.                cost increases are caused by the Corps and other Project
                               stakeholders. Our audit was limited to the Department’s
                               participation in the Project. We did not audit the Corps’
                               management of the Project or other stakeholders’ involvement
                               in the Project. We also limited our audit to the Modified
                               Water Deliveries Project and did not audit the Department’s
                               involvement in the Comprehensive Everglades Restoration
                               Plan that involves additional projects to be performed after
                               completion of the Modified Water Deliveries Project.


                                               i
This report presents actions aimed at ensuring that the
Department effectively participates in the Project. Effective
participation can best be achieved by the Department utilizing
a project management approach to guide its participation,
including:

  ¾ A clearly defined Department-level consultation plan.

  ¾ A unified Departmental approach to restoration.

  ¾ A single line of communication with the Corps.

  ¾ Improved coordination and communication with Project
    stakeholders.

  ¾ Improved Departmental monitoring and reporting of the
    Project.

We concluded that if the Department does not improve its
participation in the Project, there is a risk that it may
contribute to:

  ¾ further delays.

  ¾ cost increases.

  ¾ failure to achieve Project benefits.

  ¾ environmental degradation.

  ¾ diminished public support.

  ¾ litigation.

  ¾ continued strain on limited federal resources.

  ¾ delays in implementation of other Everglades
    restoration projects.




               ii
                           CONTENTS
The Modified Water Deliveries Project………………………………………………... 1

Results of Audit
   Develop a Plan to Guide the Department’s Participation………………………….. 5
   Develop a Unified Approach to Restoration……………………………………….. 8
   Establish a Single Line of Communication with the Corps………………………... 9
   Improve Coordination and Communication with Project Stakeholders…………… 9
   Improve Monitoring and Reporting………………………………………………... 11
Recommendations……………………………………………………………………… 15

Appendices

1   Objective, Scope, and Methodology……………………………………………….. 19
2   Prior Audits………………………………………………………………………… 23
3   Management’s Comments on Draft Report.……………………………………….. 27
4   Status of Audit Recommendations……………………………………………….....45




                                    iii
This Page Intentionally Left Blank




                iv
    THE MODIFIED WATER DELIVERIES PROJECT
                                   The Modified Water Deliveries Project to Everglades National
The South Florida                  Park (Project) is a critical component in achieving
The  Congressional
Everglades                         environmental restoration in the South Florida Everglades. The
mandate to preserve the            Project’s purpose is to remove impediments to natural water
Everglades
Before human  is one of the        flows into Everglades National Park (Park) by altering or
strongest  in the
intervention,       National
                 freshwater        removing existing water management structures, such as levees
Park System.      Since
moved south from Lake              and canals. The Department of the Interior has identified the
Everglades
OkeechobeeNational
                to Florida Park    Project as one of its highest priorities.
opened   in  1947,
Bay in a broad, slow-it has
been
movingdesignated
          sheet. The an            The Project was authorized in the Everglades National Park
International    Biosphere
quantity and timing       of the   Protection and Expansion Act of 1989 (1989 Act) to improve
Reserve,   a World
water’s flow depended on           water deliveries to the Park and, to the extent possible, restore
Heritage   Site, and
rainfall patterns   and a on       the natural hydrological conditions within the Park. The Project
Wetland    of Internationa
slow releases of stored l          is expected to provide significant benefits directly to the Park.
Importance.
water. The Everglades
provides habitat for many          The Project is unusual in several respects. The U.S. Army Corps
species of native wildlife.        of Engineers (Corps) is responsible for designing and
                                   constructing the Project, but funding is provided through
Following major droughts           Department of the Interior appropriations. There are numerous
from the early 1930s and           stakeholders affected by the outcome of the Project.
1940s and drenching                Stakeholders for the Project include the State of Florida, Native
hurricanes in 1947, the            American tribes, local governments, residential and agricultural
Congress authorized the            landowners, environmental groups, and recreational users.
Central and Southern
Florida Project to prevent         The 1989 Act established the Department’s role in the Project as
flooding and to provide            one of consultation. Annual appropriations statutes specified
drainage and water for             that the Department was to fund the Project. However, for fiscal
South Florida residents.           year 2006, Congress provided appropriations to both the
The canals, levees, and            Department and the Corps. Although the Department
pumps of this project              participates with the Corps in general Project planning and
coupled with agricultural          design, the Corps is the direct project manager and makes the
and industrial activities          final decisions. Because funding is transferred between federal
and urbanization, have             agencies, the Department’s responsibilities are generally limited
reduced the Everglades to          to ensuring that the Corps uses the funds for the Project.
about half its original            Currently, no legislation exists that defines the extent of the
size. These changes have           Department’s consultation to the Corps or that authorizes the
had a detrimental effect           Department to enforce cost limits on funding transferred to the
on wildlife habitats and           Corps for the Project. Further, the Department has not defined
water quality.                     its consultation role to the Corps for the Project nor has it
                                   implemented procedures to ensure adequate monitoring and
                                   accountability for the Project. The following page illustrates the
                                   general federal, state, and other stakeholder roles in the Project
                                   (Figure 1):


                                               1
 PUTTING IT ALL TOGETHER: THE
DEPARTMENT’S CONSULTATION IS A
CRITICAL COMPONENT TO ENSURE
      PROJECT SUCCESS


                                                                     The Department
                                                            Provides consultation to the Corps
                                                            on Project planning and design. It
                                                            should identify and resolve,
                                                            through policy direction,
                                                            competing Project needs between
                                                            Departmental agencies. It should
                                                            ensure a unified and balanced
                                                            approach to consultation that
                                                            achieves intended benefits for the
                                                            Park and the greater Everglades
                                                            system.


                The Corps
Serves as Project manager with full
responsibility to design and complete the
Project. Considers the recommendations
of the Department, State of Florida,
Tribes, and other stakeholders in Project
planning and design.




            State of Florida                     Other Stakeholders
  Provides consultation to the               Represent the Tribal,
  Corps on Project planning and              residential, agricultural,
  design to ensure the needs of the          environmental, and
  greater Everglades system and              recreational interests.
  the water-related needs of the             Provide consultation to the
  regions, including water supply            Corps.
  and flood protection and
  considered.




                                            Figure 1

                                               2
The Corps issued a General Design Memorandum (GDM) for
the Project in 1992. The GDM provided the initial design for the
Project and serves as the authorizing document for modifications
needed to improve water flows into the Park. The Department
supported the Corps’ initial design as set forth in the GDM. The
GDM identified work that is currently being carried out as three
major components. These components are:

  ¾ Eight and One-Half Square Mile Area: Flood
    mitigation for a residential area near the Park. The
    acquisition of lands required to construct this component
    has been completed and a contract has been awarded for
    the construction of flood mitigation features.

  ¾ Tamiami Trail: Raising a small section of U.S. Highway
    41, known as the Tamiami Trail. Re-design for this
    component was completed in January 2006.

  ¾ Conveyance and Seepage: The construction of features
    to pass and control water flows into the Park.
    Construction of these features was about 58 percent
    complete as of April 2005.

The Project was originally estimated to be completed in 1997 at
a total cost of about $81 million. As of June 2005, about $183
million had been transferred from the Department to the Corps
for the Project.

The Project has been subject to considerable public controversy
and many factors have led to Project delays and cost increases.
Many of these factors are outside the Department’s direct
responsibility and control, such as delays resulting from
litigation concerning the Eight and One-Half Square Mile Area.
In addition, Federal and State of Florida planning agencies
disagree about how to best achieve restoration. This has
contributed to the need for redesign of Project features and
escalating costs. Further, conflict within the Department over the
restoration approach has also contributed to Project delays.
Consequently, the Project is currently eight years behind
schedule and its projected price tag is approaching $400 million,
nearly five times the original estimate.

In 1996, Congress authorized the Corps to develop a
comprehensive plan for restoring, preserving, and protecting the
Everglades. This comprehensive plan is known as the



            3
                            Comprehensive Everglades Restoration Plan (CERP) and is a
                            separate restoration effort from the Project. Congress also
                            established a special advisory task force that is charged with
                            coordinating and facilitating CERP and other Everglades
                            restoration projects. A Special Assistant to the Secretary of the
                            Interior leads this task force. The Project has been recognized as
The Comprehensive           a foundation project for CERP and its completion is a legislated
Everglades Restoration      prerequisite for other CERP projects. Therefore, the success of
Plan (CERP) is being        CERP is dependent on the completion of the Project. As a
implemented jointly by      result, the Project’s schedule is of particular interest to the
Federal and State of        Congress and the Department.
Florida agencies. It is
expected to cost $11        Our report will give the Department insight into some of the key
billion and take 30 years   issues that are currently hindering successful Project completion
to complete.                and present strategies geared towards resolving these issues.
                            Appendices 1 and 2 contain information on the objective, scope,
                            and methodology of our audit and prior audit coverage.




                                        4
                    RESULTS OF AUDIT
                    The Department has not effectively participated in the Project
                    because it has not clearly defined its consultation role and it has
                    not developed and communicated a comprehensive and unified
                    restoration strategy for the Project. This has contributed to
                    Project delays and cost increases. Effective participation can
                    best be achieved by the Department utilizing a project
                    management approach to guide its participation, including:

                      ¾ A clearly defined Department-level consultation plan.

                      ¾ A unified Departmental approach to restoration.

                      ¾ A single line of communication with the Corps.

                      ¾ Improved coordination and communication with Project
                        stakeholders.

                      ¾ Improved Departmental monitoring and reporting of the
                        Project.

                    The Department lacks a plan to effectively guide its participation
DEVELOP A PLAN TO   in the Project. Although the Corps makes final Project decisions,
GUIDE THE           the Department participates in Project planning and design and
DEPARTMENT’S        provides consultation to the Corps. Numerous planning
PARTICIPATION       documents exist, but none represent a comprehensive plan that
                    adequately defines the process by which the Department will
                    provide its consultation and its desired goals in meeting the
                    overall statutory objectives for the Project. Given the unique
                    nature of the Department’s role in the Project, we believe that
                    such a plan is needed to ensure the goals of the Department are
                    clearly conveyed to the Corps and considered in the Corps’
                    design. Specifically, the plan should define:

                      ¾ A process for a unified Departmental approach to
                        restoration, including clear decision-making and desired
                        goals for the Project.

                      ¾ A strategy for coordinating and communicating with the
                        Corps and other stakeholders.

                      ¾ A process to improve monitoring and accurately report on
                        Project status and funding.



                                5
                             Since the initial design of the Project in 1992, the Department
                             has changed its desired restoration goals for the Project resulting
                             in the need to redesign Project components and contributing to
                             delays and cost increases. The Department also has not
                             communicated to the Corps a unified and consistent restoration
                             approach that is based on the Park’s needs and overall
                             Department goals. For example:

                               ¾ Eight and One-Half Square Mile Area: The 1992 initial
The flood mitigation
                                 Project design included a pump station, a flood mitigation
Project component has
                                 canal, and a levee around a residential area next to the
been delayed about six
                                 Park. In 1998, the Department and the State of Florida
years due to re-design and
                                 determined that the Corps’ initial design would no longer
litigation. Budgeted costs
                                 meet the desired restoration needs for the Park and the
increased by about $67
                                 greater Everglades system. Specifically, the Department
million over this period.
                                 voiced concerns that pressure from residents within the
                                 area could cause this component to be operated for flood
                                 protection rather than restoration. The Department
                                 supported the State of Florida in its request that the Corps
                                 re-evaluate the initial design. This required a re-design of
                                 the Project component.

The Tamiami Trail              ¾ Tamiami Trail: The 1992 initial Project design included
Project component has            raising a small section of U.S. Highway 41, known as the
been delayed about two           Tamiami Trail. Due to changing restoration goals, more
years due to re-design and       water is now expected to be conveyed under the roadway.
the budgeted cost has            As a result, the Department and the State of Florida
increased about $125             determined that the Corps’ initial design was not workable.
million.                         The Corps re-designed this component of the Project in
                                 2003. Subsequently, the Department determined that the
                                 Corps’ 2003 design was not workable and would not meet
                                 its desired restoration needs for the Park. As a result, the
                                 Corps had to re-design this Project component for a second
                                 time.

About $7.6 million was             Both Corps officials and NPS officials have acknowledged
used to construct a pump           that a significant risk exists regarding the adequacy of the
that has never been                design for the Tamiami Trail. Specifically, agreement on
operated. The                      the final design for the Conveyance and Seepage
Department is paying               component has not been reached. Consequently, questions
about $450,000 annually            regarding the ultimate capacity, placement, and operation
to maintain this pump.             of Conveyance and Seepage Component features remain
                                   unanswered. This information is needed to address the
                                   timing, location, and amount of water flowing under the
                                   roadway. NPS officials have stated that they do not



                                         6
      believe they can direct the Corps on how to plan and
      design the Project and that such direction would have to
      come from the Secretary or Assistant Secretary level.

The Department has acknowledged the high priority of the
Project and its importance to achieving restoration of the Park.
Despite its importance, the Department has no performance goals
for the Project. The needs of the Park are generally articulated
in the Park’s strategic plan for 2001 to 2005, which identifies two
goals related to the Project: (1) hydrologic restoration and (2)
water quality. The strategic plan identified a target date of
September 30, 2005, for completing the Project’s design. The
plan was deficient because it did not identify clear and concrete
restoration objectives for the Park. In addition, the plan did not
include critical tasks and milestones for monitoring the
consultation process to ensure the design target date was reached.

In September 2003, the NPS had developed a planning document
that defined objectives and assumptions for operating the Project
upon its completion. This document was not approved by the
Department nor was it agreed to by the Corps. Additionally, this
document did not address the Department’s participation in the
Project. For example, it did not describe a process for ensuring
that the Department’s consultation to the Corps was provided in a
unified manner or that conflicts within the Department were
adequately resolved prior to providing Project design
consultation to the Corps.

None of the plans described above represent a coordinated and
comprehensive strategy for the Department’s participation in the
Project. A 1999 Government Accountability Office (GAO)
report on the South Florida Ecosystem Restoration indicated that
the lack of 1) a strategic plan, 2) clearly defined restoration
objectives, and 3) a dispute resolution process were significant
factors impeding the successful restoration of the Everglades.
The GAO report identified the Project as one that had incurred
delays and cost increases as a result of these factors.
The Department has the responsibility to communicate the Park’s
restoration needs to the Corps. However, without a restoration
strategy and consultation plan, we question the Department's
ability to participate successfully in the Project and to provide
effective consultation to the Corps.




            7
                               The Department has not developed a clear unified position on its
DEVELOP A UNIFIED              preferred restoration approaches. The Fish and Wildlife Service
APPROACH TO                    (FWS) and NPS have had different positions regarding
RESTORATION                    fundamental planning and design issues. Specifically, they differ
                               on methods for water control and the preferred options to ensure
                               that water depths achieve restoration objectives. Such differing
 Tree islands are key          positions have contributed to the need for multiple Project
 indicators of the health of   feature re-designs. For example:
 the Everglades ecosystem
 because of their                ¾ Water Control Methods: To best achieve restoration,
 sensitivity to both               NPS believes water should move freely into the Park.
 flooding and drought              However, FWS is concerned that if water flows are not
 conditions.                       adequately controlled, poor water quality could
                                   compromise species habitat and Park restoration.
                                   Conflicts surrounding this issue have contributed to the
                                   need for multiple re-designs of Project features that
                                   determine how water will flow into the Park. As of June
                                   2005, a final design of these features had yet to be
                                   determined.

                                 ¾ Water Depths: FWS and NPS have been unable to agree
                                   on the optimal water depths for Project operations. NPS
                                   has decided that higher water depths than were originally
                                   designed are now necessary to achieve its restoration
 The Corps estimates that          objectives. However, FWS believes that the higher water
 damage to tree islands            depths proposed by NPS may cause damage to the tree
 resulting from current            islands. NPS insists the tree islands can survive with
 high water levels could be        higher water depths. This argument has persisted for many
 as much as 246 acres per          years without resolution.
 year and the cost to
 restore the islands ranges    The Department does not have an adequate method to ensure the
 from $12.3 million to         timely resolution of such disputes. Specifically, the Department
 $123 million per year.        lacks a formal process for elevating and resolving planning and
                               design related disputes between the agencies to arrive at a unified
                               Departmental position. In fact, when a Departmental official was
                               asked if there were any unresolved issues for the Project, the
                               official was unaware of any ongoing contentious issues. Further,
                               the Corps’ Project Manager noted disconnect within the
                               Department regarding restoration approaches and believes NPS’
                               approach to restoration is a moving target. Because the
                               Department has not formulated a unified approach to restoration,
                               it has contributed to the Corps’ need to re-design project features.




                                           8
                                         The Department does not have a single line of communication to
ESTABLISH A SINGLE                       clearly convey a unified position on Project issues to the Corps.
LINE OF                                  The Department’s communication with the Corps is fragmented,
COMMUNICATION WITH                       as it is carried out through the following offices and individuals:
THE CORPS
                                           ¾ Department of the Interior
                                              o Special Assistant to the Secretary
 One Corps official noted                     o Everglades Restoration Initiatives Office
 that the Department’s
 “fuzzy chain of command                   ¾ National Park Service
 is problematic…”                             o Everglades National Park Superintendent
 Another Corps official                       o South Florida Natural Resources Center Technical
 noted that there are “three                     Staff
 separate camps” within
 the Department and there                  ¾ Fish and Wildlife Service
 are Project decisions that                   o South Florida Field Office
 need to be made at the
 Departmental level.                     The Corps has received conflicting and inconsistent information
                                         from these various Departmental sources regarding Project
                                         planning and design issues. Corps planning officials stated that
                                         they were not sure which of these Departmental sources had the
                                         authority to resolve conflicting or inconsistent positions.

                                         The Department needs to improve its coordination and
IMPROVE                                  communication with stakeholders to provide effective
COORDINATION AND                         consultation for the Project and to build consensus with
COMMUNICATION WITH                       stakeholders to reach workable Project solutions.
PROJECT
STAKEHOLDERS                             Numerous stakeholders are affected by the outcome of Project
                                         alternatives. Stakeholders for the Project include the State of
                                         Florida, Native American tribes, local governments, residential
 “The key to our success                 and agricultural landowners, environmental groups, and
 lies in the strength of our             recreational users.
 partnership and our
 commitment to                           Since the Project’s inception, public controversies have resulted
 collaboration.”                         from the competing interests of diverse stakeholder groups.
 Comment made by Secretary Norton to
 the Everglades Coalition, January 10,   Some controversies have resulted in litigation and have
 2003.                                   significantly delayed the Project. For example, debates over how
                                         to best achieve flood mitigation for the Eight and One-Half
                                         Square Mile Area resulted in a litigious dispute that was not
                                         resolved until 2003, delaying the Project by at least four years.
                                         Similarly, stakeholder controversies regarding the length and
                                         placement of bridging modifications for the Tamiami Trail
                                         component delayed the Project since at least 2003.




                                                     9
                                         To carry out its consultation role for the Project, the Department:

                                           ¾ Negotiates with the Miccosukee Tribe and the airboat
                                             operators within the Project’s boundaries.

                                           ¾ Participates on a stakeholder’s advisory team that provides
                                             a forum for building consensus.

                                           ¾ Serves as the Chair for the South Florida Ecosystem
Native American Village that must be
elevated prior to Project operations
                                             Restoration Task Force which coordinates the efforts of
                                             the federal, state, and local agencies involved in the larger
                                             Everglades restoration project.

                                         The Department has not effectively coordinated and
                                         communicated with stakeholders to build consensus.
                                         Consequently, its image and credibility have suffered. For
  The Park’s typical way of              example:
  going about business for
  the Project is behind                    ¾ Miccosukee Tribe members have expressed mistrust
  closed doors. The                          toward the NPS. Previous attempts by NPS staff to
  mistrust is total now.                     negotiate a workable solution with the Tribe’s Osceola
  Comments from stakeholders
  representing Miccosukee Tribe and
                                             Village residents have been unsuccessful. The village
  environmental interests.                   must be raised due to the Project’s higher water levels
                                             before the Project can operate. In an attempt to find a
                                             workable solution, the current Park Superintendent has
                                             taken over the responsibility for the negotiations.
  “Nobody trusts anyone
  anymore, especially                      ¾ The Department participates on a stakeholder’s advisory
  public agencies.”                          team that represents multiple stakeholder interests and
  Comment from one stakeholder               provides a forum for consensus building. However, team
  representing agricultural interests.       members have asserted that the advisory process lacks
                                             transparency and that communication is not effective.
                                             Further, team members have stated their issues are not well
                                             addressed by the Department and pertinent information is
                                             not provided for effective input and consideration.

  “The Department does                     ¾ Project operations require a flowage easement across lands
  not seem to share                          used for airboat recreation. A flowage easement is a legal
  information.”                              right to allow water flow across property. The landowners
  Comment from one stakeholder               and the Corps could not reach agreement on the
  representing recreational interests.
                                             easement’s purchase price. Consequently, the landowners
                                             initiated negotiations with the Department. However, the
                                             Department failed to inform the Corps of these ongoing
                                             negotiations. Unaware of the current status of these
                                             negotiations, the Corps subsequently condemned the
                                             property. As a result, trust-building efforts between the



                                                    10
                           Department and the landowners were undone.

                     NPS has attempted to improve coordination and communication
                     with stakeholders. For example, the current Park Superintendent
                     has made progress in moving negotiations forward with Osceola
                     Village residents. Also, the Park staff developed Ground Rules
                     in August 2003 for the stakeholder’s advisory team. If adopted,
                     these rules would aid in improving communications and
                     transparency for the advisory process. However, as of June 2005
                     the Ground Rules had not been adopted.

                     Negative public perception in the past has hindered the
                     effectiveness of cooperation efforts. In fact, a Departmental
                     official noted that mistrust created by NPS in the past has limited
                     current efforts to build consensus. Therefore, we believe a
                     Departmental liaison is needed to ensure a coordinated and well
                     communicated approach to improving consensus-building among
                     stakeholders.

                     Historically, the Department has taken little action to monitor
IMPROVE MONITORING   costs or to obtain status information from the Corps. Because
AND REPORTING        Project funds are transferred from the Department to another
                     federal agency, the Department’s responsibility is generally
                     limited to ensuring the funds are used for general Project
                     purposes. As the primary beneficiary and funding agency for the
                     Project, we believe the Department should take a greater role in
                     monitoring the costs and schedule of this Project than it has in
                     the past.

                     Departmental officials have expressed concern with the Corps’
                     ability to manage the Project within budget and schedule.
                     However, the Department did not require the Corps to formally
                     report Project status and costs until late 2004, twelve years after
                     the Project’s authorized start date.

                     NPS, on its own initiative, has taken steps to improve oversight
                     and accountability for the Project. For example, in April 2005,
                     NPS instituted monthly Project management meetings that are
                     attended by FWS and the Corps. Also, NPS has developed a
                     management agreement with the Corps. Although the agreement
                     was designed jointly with the Corps, it contained provisions
                     intended to improve the Department’s ability to monitor and
                     track Project status and funding. We reviewed the agreement
                     and noted that it was too general to ensure adequate oversight
                     and accountability for the Project. For example, the agreement
                     provides that disputes shall be resolved at the lowest



                                11
organizational level, but it does not specify a process or a
timeframe for doing so.

Although the agreement was signed by the Special Assistant to
the Secretary and the Corps in May 2005, the Department has not
enforced the provisions in the agreement. For example, the
quarterly meetings intended to brief Departmental policy
officials have not occurred. Instead, the Department has opted to
replace these meetings with the Corps’ existing Quarterly
Review Board meetings. Departmental policy officials do not
attend these Quarterly Review Board meetings and the issues
addressed in these meetings deal with the larger comprehensive
Everglades restoration effort and are not specific to the Project.
A Departmental official noted that although the management
agreement specifies that quarterly briefings are to occur, these
meetings are not occurring because policy officials do not have
time. The official also acknowledged that there should be more
oversight and input into the Project at higher levels within the
Department. The quarterly meetings called for in the agreement
were intended to:

  ¾ Determine if agencies were on track to achieve policy and
    management objectives.

  ¾ Provide an opportunity for policy officials to set and
    clarify joint goals.

  ¾ Review policy issues and provide direction to field
    managers.

  ¾ Resolve any disputed issues.

  ¾ Facilitate reporting to the Office of Management and
    Budget (OMB).

NPS is required to prepare an annual capital asset plan (CAP)
that provides information on Project accomplishments, status,
expenditures, and the proposed budget to the Department and
OMB. NPS also uses this information in developing its five-year
construction plan. NPS does not always include all known
information regarding Project costs, risks, and uncertainties in its
CAP. For example, the April 2005 CAP did not disclose all
known costs and risks such as:

  ¾ There is a risk that the Tamiami Trail may need to be
    expanded onto the Park’s property. This may require



           12
      additional authorization from Congress and about $1
      million for further environmental analysis.

  ¾ The Department has been unable to reach agreement with
    the Corps and the State of Florida on the operations for
    one pump station. As a result, the State of Florida will not
    accept transfer of the pumping station and the Department
    is paying about $450,000 for annual maintenance of this
    pumping station. In addition, there is a risk that either the
    capacity of this pump will need to be increased or a
    seepage barrier will need to be constructed. The cost of
    this additional work was not included in the CAP.

  ¾ The risk that the scope of the Tamiami Trail design may
    exceed current legislative authority and could be subject to
    cost share requirements with the State of Florida, as
    expressed by the Corps’ authorizing committee.

The NPS, recognizing the need for improved Project monitoring
and reporting, has recently instituted more stringent reporting
requirements from the Corps. However, the Department still
needs to take steps to ensure that the Department is adequately
and readily updated regarding Project status, cost, and risks.
Given the importance of the Project to the Department, the
Department should establish a process to improve monitoring
and reporting to ensure that the Project stays within its authorized
budget and scope.




           13
This Page Intentionally Left Blank




               14
                 RECOMMENDATIONS
                  To address the deficiencies identified in this report, we made six
                  recommendations to the Deputy Secretary. The Deputy
                  Secretary’s March 8, 2006 response (Appendix 4) identified
                  proposed actions by the Department to address our
                  recommendations. Additionally, the Deputy Secretary’s original
                  February 6, 2006 response also included suggested changes to
                  the report and additional information that we considered and
                  included as appropriate. We also restated recommendation 2 in
                  order to clarify the intent of the recommendation. Based on the
                  Department’s responses, we classified Recommendation 4 as
                  resolved and implemented. The remaining five
                  recommendations were classified as resolved—not implemented.

                  The Department should effectively participate in the Project by
                  providing consultation to the Corps that is integrated, consistent,
                  and unified. Effective participation may best be achieved by
                  using a project management approach to guide the Department's
                  consultation. We recommend that the Deputy Secretary establish
                  and implement a project management approach to consultation
                  for the Project by:

                   1. Appointing a proven project manager with access to the
                      highest levels of the Department to take charge of this
                      project and serve as the final arbitrator of intra Bureau
                      conflicts and to speak with one Department voice to
                      external stakeholders.

DOI RESPONSE      The Department hired a new Assistant Deputy Secretary who
                  will serve as the Department’s lead official on South Florida
                  ecosystem restoration projects. She will report to the Deputy
                  Secretary and will act as the final arbitrator of intra-bureau
                  conflicts and represent the Department to external organizations.
                  Additionally, NPS will recruit a project manager to be co-located
                  with the Corps. This person will report to the Everglades
                  National Park Superintendent, who will report to the
                  Department’s Director of Everglades Restoration Initiatives, who
                  will in turn report to the Assistant Deputy Secretary of the
                  Interior. The target completion date is May, 2006.

OIG CONCLUSION    This recommendation is resolved – not implemented.

                   2. Developing a Department-level plan to guide the
                      Department’s participation in the Project. The plan should


                             15
                      clearly define the process by which the Department will
                      provide its consultation and its desired goals in meeting the
                      overall statutory objectives for the Project.

DOI RESPONSE     A Department-level plan is currently being developed to improve
                 the Department’s participation in the implementation of the
                 projects to ensure restoration objectives. The target date of
                 completion is March 31, 2006.

OIG CONCLUSION   The recommendation is resolved – not implemented.

                  3. Developing a Department-level approach to restoration
                     including establishing a process for elevating critical Project
                     issues, to arrive at a unified Department position.

DOI RESPONSE     The Director of Everglades Restoration Initiatives will facilitate
                 coordination, communication and consensus building. If
                 resolution of issues is not achieved, the Director will elevate the
                 issue to the Assistant Deputy Secretary for final arbitration and
                 decision. The Assistant Deputy Secretary will issue a
                 memorandum clarifying the role of the Director. Target
                 completion date is March 15, 2006.

OIG CONCLUSION   Management’s target date for completion of the action for this
                 recommendation was March 15, 2006; however, we have not
                 received confirmation that the action was timely completed.
                 Therefore, we consider this recommendation resolved – not
                 implemented.

                  4. Establishing a single line of communication with the Corps
                     to clearly convey the Department’s position on critical
                     Project issues.

DOI RESPONSE     The Director of Everglades Restoration will serve as the South
                 Florida direct contact and will be responsible for communicating
                 the Department’s day-to-day restoration efforts. The Assistant
                 Deputy Secretary will serve as the ultimate single point of
                 contact to convey the Department’s position on critical Project
                 issues.

OIG CONCLUSION   The recommendation is resolved and implemented.

                  5. Designating a Departmental liaison to improve
                     coordination, communication, and consensus building.




                            16
DOI RESPONSE     Implemented through the response to Recommendation 2. Target
                 date March 31, 2006.

OIG CONCLUSION   Recommendation resolved – not implemented.

                  6. Improving monitoring and reporting by enforcing the
                     provisions of the management agreement to ensure that the
                     Project stays within authorized budget and scope.

DOI RESPONSE     Implemented through the response to Recommendation 1.

OIG CONCLUSION   Recommendation resolved – not implemented.




                           17
This Page Intentionally Left Blank




               18
                                                                               Appendix 1


     OBJECTIVE, SCOPE, AND METHODOLOGY
The authorizing legislation for the Project established the Department’s role as one of
consultation. Further, because funding is transferred between Federal agencies, the
Department’s responsibility is limited to ensuring that the Corps uses funds for general
Project purposes. The Department participates with the Corps in project planning and
design, but the Corps makes the final decisions. Therefore, our audit objective was to
evaluate the effectiveness of the Department’s participation in the Project. We did not
audit the Corps’ management of the Project, the State of Florida’s involvement in the
Project, or the Department’s participation in the overall Comprehensive Everglades
Restoration Project.

To accomplish our objective, we:

  ¾ Reviewed and evaluated the Project costs, land acquisition data, management
    plans, design plans, and other related agreements and reports.

  ¾ Reviewed laws, regulations, policies, and guidance relating to the Project and
    Everglades restoration.

  ¾ Obtained information on the processes and controls in place for monitoring Project
    activities.

  ¾ Examined prior audit reports, Departmental Performance and Accountability
    Reports, Congressional testimony, and various reports issued by advisory groups
    providing suggested improvements on Everglades’ restoration.

  ¾ Reviewed and considered federal and private industry project management
    standards and practices, such as those set forth by the Project Management
    Institute.

During the audit, we also interviewed personnel and obtained Project-related
documentation, as necessary, at the following locations:

                               Department of the Interior

Everglades Restoration Initiatives Office                           Miami, FL
Special Assistant to the Secretary of the Interior                  Washington, DC
Office of the Solicitor                                             Washington, DC

                                  National Park Service

Everglades National Park                                          Homestead, FL
South Florida Natural Resources Center                            Homestead, FL


                                            19
Land Acquisition Office                                            Naples, FL
NPS Director’s Office                                              Washington, DC
Budget Office                                                      Washington, DC
Southeast Regional Office                                          Atlanta, GA
Denver Service Center                                              Denver, CO

                                 Fish and Wildlife Service

South Florida Field Office                                         Vero Beach, FL

                                  U.S. Geological Survey

Eastern Region Directorate                                         Ft. Lauderdale, FL
Central Region Directorate                                         Denver, CO

                                  Bureau of Reclamation

Phoenix Area Office                                                Phoenix, AZ
Technical Service Center                                           Denver, CO

                               U. S. Army Corps of Engineers

Jacksonville District Office                                       Jacksonville, FL
South Florida Office                                               West Palm Beach, FL

                                      State of Florida

South Florida Water Management District                            West Palm Beach, FL

                                  Interested Stakeholders

Miccosukee Tribe                                                    Miami, FL

South Florida Ecosystem Restoration Task Force                      Miami, FL

Other officials representing various stakeholder interests, such    South Florida
as residential, agricultural, environmental, and recreational

We performed our audit from February 2005 to November 2005 in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that we
considered necessary under the circumstances. As part of our audit, we evaluated the
system of internal controls to the extent that we considered necessary to accomplish our
objective. We identified internal control weaknesses in the area of budget preparation.
The internal control weaknesses identified are discussed in the Results of Audit section of
this report. If implemented, the recommendations should improve the internal controls.




                                            20
We reviewed the Secretary’s Annual Report on Performance and Accountability
(Secretary’s Report) to the President and the Congress for fiscal year 2005. This report
is required by the Federal Managers’ Financial Integrity Act of 1982. The Secretary’s
Report contained no reported weaknesses within the objective and scope of our audit.




                                           21
This Page Intentionally Left Blank




               22
                                                                                  Appendix 2



                               PRIOR AUDITS
During the past five years the Office of Inspector General has not issued any audit reports
regarding the Project. The Government Accountability Office (GAO) issued six reports
in the past five years related to Everglades’ restoration. Five of the six reports generally
addressed the overall Everglades restoration efforts, but the reports also included
narrative specific to the Project, as well as other authorized Everglades restoration
projects. One report addressed major management challenges for the Department of the
Interior, including the Project.

  ¾ “South Florida Ecosystem Restoration: An Overall Strategic Plan and a
    Decision-Making Process are Needed to Keep the Effort on Track,” GAO
    Report No. 99-121, April 1999.

      Agencies involved in Everglades’ restoration, including the Modified Water
      Deliveries Project have differing and conflicting missions. This has contributed to
      the inability to resolve disagreements in a timely manner and has kept Everglades
      National Park from achieving anticipated environmental benefits. Without some
      entity or group with overall management responsibility and authority to resolve
      differences, problems could continue to hinder the Project as well as other
      Everglades restoration projects. GAO recommended the development of a
      comprehensive strategic plan for Everglades’ restoration and a decision-making
      process to resolve conflicts.

  ¾ “South Florida Ecosystem Restoration: Substantial Progress Made in
    Developing a Strategic Plan, but Actions Still Needed,” GAO Report No. 01-
    361, March 2001.

      The South Florida Ecosystem Restoration Task Force has made progress in
      developing a strategic plan for ecosystem restoration. However, GAO noted that
      the plan was not sufficient in that it does not outline how restoration will occur.
      Specifically, the plan did not: (1) describe approaches or strategies to achieve the
      strategic goal of fostering compatibility of the built and natural systems, (2)
      describe the relationship of desired end results and strategic restoration goals, and
      (3) include quantifiable measures for assessing progress.


  ¾ “Major Management Challenges and Program Risks: Department of the
    Interior,” GAO Report No. 01-249, January 2001.

      GAO identified ecosystem restoration as a major management challenge for the
      Department. GAO noted that the Department needed to: (1) work with outside
      entities to develop plans and strategies that will achieve restoration and


                                            23
   management goals and (2) improve its coordination with the multiple entities
   involved in the restoration efforts by ensuring coordination procedures are in place
   and that a means to resolve conflicts exists.

¾ “Comprehensive Everglades Restoration Plan,” GAO Report No. 00-235,
  September 2000.

   The Comprehensive Everglades Restoration Plan (Plan) provides a conceptual
   framework for improving the quality, quantity, timing, and distribution of water in
   the South Florida ecosystem. GAO concluded that there were too many
   `uncertainties to estimate the number and costs of the Corps projects that would
   ultimately be needed to address water quality. GAO stated that it was likely that
   modifications and additions to the Plan would be necessary and that these changes
   could increase the total cost of the Plan over the estimated $7.8 billion. GAO
   recommended that the Secretary of the Army provide Congress with updates that
   (1) reflect the cumulative project and cost changes to the overall Plan and (2)
   indicate the progress being made toward implementing the Plan.

¾ “South Florida Ecosystem Restoration: A Land Acquisition Plan Would Help
  Identify Lands That Need to be Acquired,” GAO Report No. 00-84, April
  2000.

   The South Florida Ecosystem Restoration Task Force (Task Force) has established
   ecosystem restoration goals and identified land acquisition as critical to achieving
   them. However, the Task Force has not yet developed a land acquisition plan that
   identifies all of the lands needed to accomplish the goals of the restoration
   initiative; each federal and state agency has made independent acquisition
   decisions. Without an acquisition plan, the Task Force cannot (1) identify all the
   lands needed, (2) reasonably estimate the cost of land acquisition, (3) measure
   progress in acquiring lands, or (4) increase the chances that the lands being
   acquired are needed. GAO recommended the Task Force develop a land
   acquisition plan that includes an assessment of the lands needed to accomplish the
   initiative’s goals.


¾ “South Florida Ecosystem Restoration: Task Force Needs to Improve Science
  Coordination to Increase Likelihood of Success,” GAO Report No. 03-345,
  March 2003.

   The Science Coordination Team (Team) – the group created to coordinate
   scientific information for the restoration – is limited by a number of factors. First,
   the Team is limited by the lack of clear direction on what it is to accomplish.
   Second, it has no processes to ensure (1) that the South Florida Ecosystem
   Restoration Task Force identified key management issues that need to be addressed
   in science planning and (2) that the Team, the Working Group, and the Task Force
   prioritize critical science issues requiring synthesis in order to provide input into



                                         24
restoration decisions. Third, the Team lacks resources to adequately carry out its
responsibilities. Until the factors limiting the Team are addressed, coordination of
scientific activities cannot be improved. Without effective coordination of
scientific activities, the Task Force lacks assurance that the scientific information
needed to make key decisions will be available; decreasing the likelihood that
restoration of the South Florida ecosystem will be successful. GAO recommended
that as Chair of the Task Force, the Secretary of the Interior:

   1. Specify the plans and documents – including a science plan focused on key
      information gaps, a comprehensive monitoring plan, and progress reports for
      each plan – that the Team needs to complete and the time frames for
      completing them.

   2. Establish a process that ensures the Task Force identifies key management
      issues that need to be addressed by science planning.

   3. Establish a process, such as review by an advisory group, to ensure that the
      Team, Working Group, and Task Force prioritize issues that require
      synthesis and are critical to restoration decisions.

   4. Evaluate staffing needs of the Team and allocate sufficient resources to
      carry out its duties.




                                      25
This Page Intentionally Left Blank




               26
                                        Appendix 3



MANAGEMENT’S COMMENTS ON DRAFT REPORT




                 27
28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
                                                           Appendix 4




   STATUS OF AUDIT RECOMMENDATIONS


Recommendations           Status         Action Required

    1, 2, 3, 5, 6   Resolved – Not   No further response to the
                    Implemented      Office of Inspector General is
                                     required. The recommendations
                                     will be referred to the
                                     Department’s Focus Leader for
                                     Management Control and Audit
                                     Follow Up for tracking
                                     implementation.
         4          Resolved and     No further response to the
                    implemented      Office of Inspector General is
                                     required.




                               45
This Page Intentionally Left Blank




               46
PHOTOS COURTESY OF:

                       IN ORDER OF APPEARANCE:
    “Southern Florida.” Image adapted from the NASA visible earth website
                          http://visibleearth.nasa.gov

    Artist Rendering of ridge and slough landscape, Chris McVoy, “The Role
    of Flow in the Everglades Landscape,” H.Fling, N.Aumen, T. Armento, F.
                     Mazzotti, University of Florida website
                              http://edis.ifas.ufl.edu/

       “Indian Village, Tamiami Trail.” South Florida Water Management
                                District website
                            http://www.sfwmd.gov




                                     47
